APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 19-56408
————
NORTH AMERICAN MEAT INSTITUTE,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his official capacity as Attorney
General of California; et al.,
Defendants-Appellees,
THE HUMANE SOCIETY OF THE UNITED STATES; et al.,
Intervenor-Defendants-Appellees.
————
Appeal from the United States District Court
for the Central District of California
Christina A. Snyder, District Judge, Presiding,
D.C. No. 2:19-cv-08569-CAS-FFM
————
Argued and Submitted June 5, 2020
Pasadena, California
FILED October 15, 2020
————
Before: CALLAHAN and IKUTA, Circuit Judges, and
BENCIVENGO,* District Judge.
* The Honorable Cathy Ann Bencivengo, United States District Judge for the Southern District of California, sitting by designation.

2a
————
MEMORANDUM**
————
North American Meat Institute (NAMI) appeals the
district court’s denial of its motion for a preliminary
injunction. We have jurisdiction under 28 U.S.C.
§ 1292(a)(1), and we affirm.
The district court did not abuse its discretion in
holding that NAMI was unlikely to succeed on the
merits of its dormant Commerce Clause claim. NAMI
acknowledges that Proposition 12 is not facially discriminatory. The district court did not abuse its discretion in concluding that Proposition 12 does not
have a discriminatory purpose given the lack of evidence that the state had a protectionist intent. Given
the inconsistencies in dormant Commerce Clause jurisprudence, the district court did not abuse its discretion in relying on Association des Eleveurs de Canards et d’Oies du Quebec v. Harris, 729 F.3d 937
(9th Cir. 2013), to hold that Proposition 12 does not
have a discriminatory effect because it treats in-state
meat producers the same as out-of-state meat producers. See Cal. Health & Safety Code § 25990(b);
Wayfair v. South Dakota, ––– U.S. ––––, 138 S. Ct.
2080, 2100–01, 201 L.Ed.2d 403 (2018) (Gorsuch, J.,
concurring).
The district court did not abuse its discretion in
concluding that Proposition 12 does not directly regulate extraterritorial conduct because it is not a price
control or price affirmation statute. See Healy v. Beer
Inst., 491 U.S. 324, 336, 109 S.Ct. 2491, 105 L.Ed.2d
** This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

3a
275 (1989); Pharm. Rsch. & Mfrs. of Am. v. Walsh,
538 U.S. 644, 669–70, 123 S.Ct. 1855, 155 L.Ed.2d
889 (2003).
The district court also did not abuse its discretion
in holding that Proposition 12 does not substantially
burden interstate commerce. Proposition 12 does not
impact an industry that is inherently national or requires a uniform system of regulation. See Pac. Nw.
Venison Producers v. Smitch, 20 F.3d 1008, 1014–15
(9th Cir. 1994). It was not an abuse of discretion to
conclude that Proposition 12 does not create a substantial burden because the law precludes sales of
meat products produced by a specified method, rather
than imposing a burden on producers based on their
geographical origin. See Pike v. Bruce Church, Inc.,
397 U.S. 137, 145, 90 S.Ct. 844, 25 L.Ed.2d 174
(1970).
Finally, because the district court did not abuse its
discretion when it held that NAMI was unlikely to
succeed on the merits, the district court did not err
when it refused to consider the other preliminary injunction factors. See Glob. Horizons, Inc. v. U.S. Dep’t
of Labor, 510 F.3d 1054, 1058 (9th Cir. 2007).
AFFIRMED.

4a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
————
Case No. 2:19-CV-08569-CAS (FFMx)
————
N. AMERICAN MEAT INSTITUTE,
v.
BECERRA, et al.
————
Filed 11/22/2019
————
Proceedings: (IN CHAMBERS) - PLAINTIFF’S
MOTION FOR PRELIMINARY INJUNCTION
(ECF No. 15, filed on October 4, 2019)
PROPOSED DEFENDANT-INTERVENORS’
MOTION TO INTERVENE
(ECF No. 25, filed on October 29, 2019)
————
The Honorable CHRISTINA A. SNYDER, District Judge
I.

INTRODUCTION

Plaintiff North American Meat Institute (“NAMI”),
a national trade association of meat packers and processors, filed this action against California Attorney
General Xavier Becerra, California Secretary of Food
and Agriculture Karen Ross, and California Director
of Public Health Sonia Angell (collectively “California” or “the State”) on October 4, 2019 to challenge
the constitutionality and prevent the enforcement of
California Health & Safety Code § 25990(b), which

5a
California voters enacted as Proposition 12 on November 6, 2018 (“Proposition 12”). See ECF No. 1
(“Compl.”). The complaint alleges that Proposition 12
violates the Commerce Clause of the United States
Constitution by: (1) discriminating against out of
state producers, distributors, and sellers of pork and
veal; (2) impermissibly regulating extraterritorial activities beyond California’s borders; and (3) substantially burdening interstate commerce in a manner
that exceeds any legitimate local benefits. Compl.
¶¶ 44-90.
Along with its complaint, NAMI concurrently filed
a motion for preliminary injunction and several supporting fact declarations from its members. See ECF
No. 15 (“PI”). The State of California filed an opposition to the PI motion on October 28, 2019. See ECF
No. 24 (“PI Opp.”). The next day, several animal welfare organizations—the Humane Society of the United States, the Animal Legal Defense Fund, Animal
Equality, The Humane League, Farm Sanctuary,
Compassion in World Farming USA, and Compassion
Over Killing (collectively the “Intervenors” or the
“Proposed Intervenors”)—filed a motion to intervene
as defendants pursuant to Federal Rule of Civil Procedure 24, as well as a brief in opposition to NAMI’s
PI motion. See ECF No. 25-1 (“MTI”), ECF No. 25-10
(“Int. PI Opp”). NAMI filed a reply in support of its
preliminary injunction motion on November 4, 2019.
See ECF No. 29 (“PI Reply”).
In addition to these submissions, the California Egg
Farmers Association filed an amicus brief in opposition to the motion for a preliminary injunction, see
ECF No. 28 (“Egg Farmers Brief”), while the States of
Indiana, Alabama, Arkansas, Kansas, Louisiana,
Missouri, Oklahoma, South Carolina, and Utah jointly filed an amicus brief in support of the motion for a

6a
preliminary injunction, see ECF No. 40 (“States’
Brief”).
The Court held a hearing on November 18, 2019.
Having carefully considered the parties’ arguments,
and the submissions of amici, the Court finds and
concludes as follows.
II. RELEVANT BACKGROUND
The following facts are taken from the complaint,
the declarations filed in support of NAMI’s PI motion,
the public record, and the submissions from the State
and amici.
A. California Voters Enact Proposition 2 (2008)
In the November 2008 election, California voters
passed Proposition 2, a ballot initiative intended to
“prohibit the cruel confinement of farm animals.” See
Cal. Prop. 2 at § 2, as approved by voters (Gen. Elec.
Nov. 4, 2008). The initiative passed with the support
of 63.42% of California voters. See Cal. Sec’y State,
Statement of Vote: 2008 General Election. Proposition 2 added §§ 25990-25994 to the California Health
and Safety Code, and took effect on January 1, 2015.
See Cal. Health & Safety Code §§ 25990-25994. The
enacted provisions prohibit California farmers from
tethering or confining pregnant pigs, veal calves, and
egg-laying hens in a way that prevented them from
lying down, standing up, fully extending their limbs,
or turning around freely. Id. at §§ 25990, 25991(b).
B. California Enacts Assembly Bill 1437 (2010)
The California legislature subsequently enacted
Assembly Bill 1437 (“AB 1437”) in 2010. AB 1437
added §§ 25995-97 to the Health and Safety Code.
These provisions prohibit selling eggs in California
that are produced by hens confined under conditions
that do not meet the confinement requirements of

7a
Proposition 2. See Cal. Health & Safety Code
§§ 25995-97.
The legislative history supporting the statute stated that the regulation intended to ensure that “all
eggs sold for human consumption in California”
would “conform to the animal care standards” established by Proposition 2 in order to “protect California
consumer’s [sic] health and welfare.” See Bill Analysis of AB 1437, Cal. Assembly Comm, on Agriculture
(April 29, 2009). Specifically, studies “cited by the author state[d] that egg-laying hens subjected to stress
have a greater chance of carrying bacteria or viruses,
thus having a greater chance of exposing consumers
to food borne bacteria and viruses.” Id. at 1, 2. In addition to these consumer health and welfare concerns,
the legislative history notes that “[s]ome supporters”
advocating for AB 1437 also “stated that this bill will
level the playing field for California egg producers to
remain competitive with out-of-state egg producers.”
Id. at 1; see also Bill Analysis of AB 1437, Cal. Assembly Comm. on Agriculture (May 13, 2009) (stating
same). In the enrolled version of the bill, the legislative findings state that it “is the intent of the Legislature to protect California consumers from the deleterious, health, safety, and welfare effects of the sale
and consumption of eggs derived from egg-laying
hens that are exposed to significant stress.” Cal.
Health & Safety Code § 25995.
A coalition of states challenged AB 1437’s sales ban
pursuant to the commerce clause of the United States
Constitution, but their action was dismissed on jurisdictional grounds. See Missouri ex rel. Koster v. Harris, 847 F.3d 646 (9th Cir. 2017). The states then attempted to petition the Supreme Court pursuant to
its original jurisdiction over disputes between states,
see U.S. Const., Art. III, § 2, but were denied. See

8a
Missouri v. California, No. 22-0-148 (filed U.S. Dec. 4,
2017).
C. California Enacts Proposition 12 (2018)
In the November 2018 election, California voters
passed Proposition 12 to amend §§ 25990-93 of the
California Health and Safety Code by adding
§ 25993.1. See Cal. Prop. 12 at § 1, as approved by
voters (Gen. Elec. Nov. 6, 2018). The initiative passed
with 62.7% of the vote. See Cal. Sec’y State, Statement of Vote: 2018 General Election. As relevant
here, Proposition 12 prohibits the sale in California of
“whole veal meat” and “whole pork meat” that a seller
“knows or should know is the meat of a covered animal who was confined in a cruel manner” as defined
by Proposition 2. Cal. Health & Safety Code
§§ 25990(b)(1), (b)(2).1 The prohibition deems that a
sale occurs in California “where the buyer takes phys1 “ ‘Whole veal meat’ means any uncooked cut of veal, including chop, ribs, riblet, loin, shank, leg, roast, brisket, steak, sirloin, or cutlet, that is comprised entirely of veal meat, except for
seasoning, curing agents, coloring, flavoring, preservatives, and
similar meat additives. Whole veal meat does not include combination food products, including soups, sandwiches, pizzas,
hotdogs, or similar processed or prepared food products, that are
comprised of more than veal meat, seasoning, curing agents,
coloring, flavoring, preservatives, and similar meat additives.”
Cal. Health & Safety Code §§ 25991(v).

Similarly, “whole pork meat” means “any uncooked cut of
pork, including bacon, ham, chop, ribs, riblet, loin, shank, leg,
roast, brisket, steak, sirloin, or cutlet, that is comprised entirely
of pork meat, except for seasoning, curing agents, coloring, flavoring, preservatives, and similar meat additives. Whole pork
meat does not include combination food products, including
soups, sandwiches, pizzas, hotdogs, or similar processed or prepared food products, that are comprised of more than pork meat,
seasoning, curing agents, coloring, flavoring, preservatives, and
similar meat additives.” Id. at §§ 25991(u).

9a
ical possession” of the meat at issue in California. Id.
at § 25991(o). Any person who violates Proposition
12’s sales prohibition is guilty of a misdemeanor punishable by a fine of up to $1,000 and up to 180 days
imprisonment. Id. at § 25993(b).
Proposition 12 thus operates in a manner similar to
AB 1437, except that Proposition 12 applies the animal confinement standards established by Proposition 2 to the in-state sale of whole veal and whole
pork products, whereas AB 1437 applies those standards to the in-state sale of hen eggs.
According to the ballot language, Proposition 12 is
intended “to prevent animal cruelty by phasing out
extreme methods of farm animal confinement, which
also threaten the health and safety of California consumers, and increase the risk of foodborne illness and
associated negative fiscal impacts on the State of California.” See Cal. Prop. 12 at § 1, as approved by voters (Gen. Elec. Nov. 6, 2018). The State has yet to issue regulations implementing Proposition 12 despite
the statutory deadline to do so by September 1, 2019.
Id. at § 25993.
D. NAMI Files Suit Asserting Constitutional Violations
NAMI represents meat packers and processors who
raise hogs and veal calves in states across the country, and who sell their pork and veal in California.
See Gallimore Decl., ¶¶ 2-5. NAMI also advocates for
its members in connection with legislation and regulation affecting the meat industry. Id. ¶ 3.
NAMI filed this suit alleging that Proposition 12
violates the dormant Commerce Clause by discriminating against its members who produce pork and
veal outside of California, impermissibly regulating
its members’ business activities beyond California’s

10a
borders, and by substantially and unlawfully burdening its members’ ability to engage in interstate commerce. Compl. ¶¶ 44-90. Because NAMI members sell
a significant portion of their products into the California market, NAMI claims that, unless Proposition
12 is enjoined, its members will face a “Hobson’s
choice” between either (i) expending the tens of millions of dollars necessary to reconfigure their production processes to comply with the regulation (including, in some cases, dismantling and reconstructing
brand new multimillion dollar facilities and securing
the financing to do so), (ii) cutting production to meet
Proposition 12’s square footage requirements (forfeiting revenue), (iii) abandoning the California market
(and forfeiting revenue), or (iv) risking the criminal
penalties and fines set forth by § 25993(b). See Bakke
Decl. ¶ 11, Catelli Decl. ¶¶ 8-10, Friesen Decl. ¶¶ 910, Darrell Decl. ¶¶ 10-15, Neff Decl. ¶¶ 4-13, Rennells Decl. ¶¶ 9-16, Turner Decl. ¶¶ 8-17, Bollum
Decl. ¶¶ 5-11.
III. LEGAL STANDARDS
A. Motion To Intervene
A party may intervene pursuant to Federal Rule of
Civil Procedure 24 either as of right, or with permission of the Court. “A party seeking to intervene as of
right must meet four requirements: (1) the applicant
must timely move to intervene; (2) the applicant must
have a significantly protectable interest relating to
the property or transaction that is the subject of the
action; (3) the applicant must be situated such that
the disposition of the action may impair or impede
the party’s ability to protect that interest; and (4) the
applicant’s interest must not be adequately represented by existing parties.” Arakaki v. Cayetano, 324
F.3d 1078, 1083 (9th Cir. 2003). A party who satisfies

11a
each of these requirements must be permitted to intervene. Id.
By contrast, “[a] motion for permissive intervention
pursuant to Rule 24(b) is directed to the sound discretion of the district court.” San Jose Mercury News, Inc
v. U.S. Dist. Ct., 187 F.3d 1096, 1100 (9th Cir. 1999).
The Ninth Circuit has set forth three prerequisites
that an applicant seeking permissive intervention
under Rule 24(b) must establish: “(1) independent
grounds for jurisdiction; (2) the motion is timely; and
(3) the applicant’s claim or defense, and the main action, have a question of law or a question of fact in
common.” Id. (internal quotation omitted).
B. Preliminary Injunction
A preliminary injunction is an “extraordinary remedy.” Winter v. Natural Res. Def. Council, Inc., 555
U.S. 7, 22, 129 S.Ct. 365, 172 L.Ed.2d 249 (2008). The
Ninth Circuit summarized the Supreme Court’s clarification of the standard for granting preliminary injunctions in Winter as follows: “[a] plaintiff seeking a
preliminary injunction must establish that he is likely to succeed on the merits, that he is likely to suffer
irreparable harm in the absence of preliminary relief,
that the balance of equities tips in his favor, and that
an injunction is in the public interest.” Am. Trucking
Ass’n, Inc. v. City of Los Angeles, 559 F.3d 1046, 1052
(9th Cir. 2009); see also Cal. Pharms. Ass’n v. Maxwell-Jolly, 563 F.3d 847, 849 (9th Cir. 2009). Alternatively, “ ‘serious questions going to the merits’ and a
hardship balance that tips sharply towards the plaintiff can support issuance of an injunction, so long as
the plaintiff also shows a likelihood of irreparable injury and that the injunction is in the public interest.”
Alliance for the Wild Rockies v. Cottrell, 622 F.3d
1045, 1053 (9th Cir. 2010). Serious questions are
those “which cannot be resolved one way or the other

12a
at the hearing on the injunction.” Bernhardt v. Los
Angeles Cty., 339 F.3d 920, 926 (9th Cir. 2003) (quoting Republic of the Philippines v. Marcos, 862 F.2d
1355, 1362 (9th Cir. 1988)).
IV. DISCUSSION
Before the Court are proposed intervenors’ motion
to intervene, and NAMI’s motion for a preliminary
injunction. The Court addresses these motions in
turn.
A. Proposed Intervenors’ Motion To Intervene
Intervenors propose to intervene in this action as of
right, and permissively. See MTI. NAMI does not oppose the motion to intervene, subject to certain conditions regarding case management to which the intervenors have agreed. See ECF No. 38.
The Court finds and concludes that intervenors
have established the three elements necessary to intervene with the Court’s permission pursuant to Rule
24(b): (1) intervenors’ application—filed 25 days after
the action commenced—is timely, and NAMI’s consent indicates that intervenors’ participation in the
case will not cause prejudice to any opposing party;
(2) there are independent grounds for jurisdiction because this is a federal question case and intervenors
do not propose to raise any new claims, see Freedom
from Religion Foundation, Inc. v. Geithner, 644 F.3d
836, 844 (9th Cir. 2011); and (3) the intervenors’ represent that their defenses are based on the same legal
arguments that the state has raised, such that there
are questions of law and fact in common between
their defense and the main action. See San Jose Mercury News, Inc., 187 F.3d at 1100.
The intervenors’ motion is accordingly GRANTED.
The intervenors shall be permitted to intervene in

13a
this action pursuant to parties’ stipulated conditions:
(1) the intervenors will abide by the same deadlines
applicable to the original defendants; (2) the intervenors will make joint filings (rather than separate, individual filings); and (3) the proposed intervenors will
not seek discovery from NAMI or its members, and
NAMI will not seek discovery from the proposed intervenors or their members, except that both NAMI
and the intervenors may ask questions at depositions,
if any.
B. NAMI’s Motion For A Preliminary Injunction
NAMI moves for a preliminary injunction on all
three of its asserted claims for relief pursuant to the
Commerce Clause. See PI at 7-23. According to
NAMI, unless the Court enjoins Proposition 12, its
members will suffer irreparable harm in the form of
constitutional injury, and noncompensable money
damages. Id. at 24-25. California opposes on grounds
that NAMI is unlikely to succeed on its claims because it lacks associational standing, see PI Opp. at 56, because the Ninth Circuit and the Supreme Court
has rejected each of its substantive theories of relief,
id. at 6-18, and because NAMI’s members injuries
would not, in any event, be irreparable, id. at 18-20.
1. The Merits Of NAMI’s Constitutional Challenge
To prevail on its motion for a preliminary injunction, NAMI must at a minimum establish that there
are “serious questions” on the merits of at least one of
its claims for relief. Cottrell, 622 F.3d at 1053. A
plaintiff seeking a preliminary injunction cannot establish serious questions or a likelihood of success on
the merits unless it demonstrates that it has Article
III standing. See, e.g., Cedar Park Assembly of God of
Kirkland, Washington v. Kreidler, 402 F.Supp.3d 978,
991 (W.D. Wash. 2019) (“Without standing, the Court

14a
cannot find Cedar Park is likely to succeed on the
merits.”); Barber v. U.S. Bank N.A., No. 16-CV-695-R,
2016 WL 9223805, at *1 (C.D. Cal. June 13, 2016)
(concluding that “plaintiffs’ first cause of action is
therefore not likely to succeed on the merits, as plaintiffs do not currently have standing to bring the
claim”).
As discussed below, the Court finds and concludes
that NAMI has associational standing to bring its
claims, but fails to raise any serious questions on the
merits of those claims.
a) Associational Standing
At the outset, California contends that NAMI is unlikely to succeed on the merits of its claims because it
lacks standing to sue. To have standing, a plaintiff
“must have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the defendant, and (3) that is likely to be redressed by a favorable judicial decision.” Spokeo, Inc. v. Robins, –––
U.S. ––––, 136 S. Ct. 1540, 1547, 194 L.Ed.2d 635
(2016). An organizational plaintiff may establish
standing on a representational basis by demonstrating that: “(a) its members would otherwise have
standing to sue in their own right; (b) the interests it
seeks to protect are germane to the organization’s
purpose; and (c) neither the claim asserted nor the
relief requested requires the participation of individual members in the lawsuit.” Associated Gen. Contractors of Am., San Diego Chapter, Inc. v. California
Dep’t of Transp., 713 F.3d 1187, 1194 (9th Cir. 2013).
The Court finds that the allegations in NAMI’s
complaint satisfy the test for representational standing. As to the first element, NAMI alleges that its
members “own and raise hogs and veal calves in various states across the country,” that these members

15a
“sell pork and veal to customers in California,” and
that these members are “regulated and harmed by”
Proposition 12. Compl. ¶¶ 9-11. The complaint details
how, according to NAMI, compliance with Proposition
12 would injure its members by imposing considerable costs upon them, or else require them to forego
revenues, and/or risk civil and criminal penalties. Id.
¶¶ 80-85. Accepting the truth of these factual allegations for the limited purpose of assessing the justiciability of NAMI’s claims, see Lujan v. Defs. of Wildlife,
504 U.S. 555, 561, 112 S.Ct. 2130, 119 L.Ed.2d 351
(1992), the Court concludes that NAMI has alleged
enough at this juncture to establish that at least
some of its members would have standing to sue in
their own right.2 Second, NAMI satisfies the second
representational standing requirement with the allegation that its “purposes include . . . advocacy on behalf of its members in connection with legislation and
regulation affecting the meat industry,” and in particular the sale of pork and veal. Compl. ¶ 8. Taking
2 In addition, the Court finds that the sworn facts declared in
the affidavits of seven NAMI members attached to the PI motion
further support a conclusion that any one of these affiants would
have standing to challenge the enforcement of Proposition 12 in
their own right. See, e.g., Darrell Decl. ¶¶ 2, 10-15 (declaring
that Smithfield Farms is a NAMI member that would be injured
if required to comply with Proposition 12). For this reason, even
if, as California appears to contend, NAMI were obligated to
identify which of its members have independent standing to
sue—a proposition the Ninth Circuit arguably rejected, see Nat’l
Council of La Raza v. Cegavske, 800 F.3d 1032, 1041 (9th Cir.
2015) (holding that there is “no purpose to be served by requiring an organization to identify by name the member or members
injured” in cases where the alleged injury to at least one member is clear and “the defendant need not know the identity of a
particular member to understand and respond to an organization’s claim of injury”)—the Court finds that NAMI has put forward facts sufficient to meet even that standard.

16a
the complaint’s allegations as true, the protection of
NAMI members’ pork and veal production practices
from Proposition 12 would encompass the type of
regulatory interests that NAMI exists to support.
And third, since NAMI “requested declaratory and
injunctive relief, not money damages,” its Commerce
Clause claims do not “necessitate individual member
participation.” Freedom From Religion Found. v. Weber, 628 F. App’x 952, 953 (9th Cir. 2015) (citing Columbia Basin Apartment Ass’n v. City of Pasco, 268
F.3d 791, 799 (9th Cir. 2001)).
Because NAMI has representational standing, it
cannot be unlikely to succeed on the merits of its
claims on that basis. The Court accordingly turns to
address the merits of those claims.
b) Commerce Clause Claims
The Constitution extends to Congress the power to
“regulate Commerce . . . among the several states.”
U.S. Const., Art. I, § 8, cl. 3. “Although the Commerce
Clause is by its text an affirmative grant of power to
Congress to regulate interstate and foreign commerce, the Clause has long been recognized as a selfexecuting limitation on the power of the States to enact laws imposing substantial burdens on such commerce.” Nat’l Ass’n of Optometrists & Opticians v.
Harris, 682 F.3d 1144, 1147 (9th Cir. 2012) (“Optometrists II”) (quoting South-Central Timber Dev., Inc. v.
Wunnicke, 467 U.S. 82, 87, 104 S.Ct. 2237, 81
L.Ed.2d 71 (1984)). “This limitation on the states to
regulate commerce is ‘known as the dormant Commerce Clause.’ ” Ass’n des Eleveurs de Canards et
d’Oies du Quebec v. Harris, 729 F.3d 937, 947 (9th
Cir. 2013) (quoting Optometrists II, 682 F.3d at 1148).
“The primary purpose of the dormant Commerce
Clause is to prohibit ‘statutes that discriminate
against interstate commerce’ by providing benefits to

17a
‘in-state economic interests’ while ‘burdening out-ofstate competitors.’ ” Id. at 947 (quoting CTS Corp. v.
Dynamics Corp. of Am., 481 U.S. 69, 87, 107 S.Ct.
1637, 95 L.Ed.2d 67 (1987) and Dep’t of Revenue v.
Davis, 553 U.S. 328, 337, 128 S.Ct. 1801, 170 L.Ed.2d
685 (2008)).
“The Supreme Court has adopted a ‘two-tiered approach to analyzing state economic regulation under
the Commerce Clause.’ ” Eleveurs, 729 F.3d at 948
(quoting Brown-Forman Distillers Corp. v. N.Y. State
Liquor Auth., 476 U.S. 573, 578-79, 106 S.Ct. 2080,
90 L.Ed.2d 552 (1986)). On the one hand, state regulations that (1) “discriminate against interstate commerce” or (2) “directly regulat[e] extra-territorial conduct” are generally “struck down . . . without further
inquiry.” Id. at 948-49 (quoting Brown-Forman); see
also Dakota v. Wayfair, Inc., ––– U.S. ––––, 138 S. Ct.
2080, 2091, 201 L.Ed.2d 403 (2018) (explaining that
such laws “face a virtually per se rule of invalidity”).
However, state regulations that (3) “regulate evenhandedly to effectuate a legitimate local public interest . . . will be upheld unless the burden imposed on
such commerce is clearly excessive in relation to the
putative local benefits.” Wayfair, Inc., 138 S. Ct. at
2091 (quoting Pike v. Bruce Church. Inc., 397 U.S.
137, 90 S.Ct. 844, 25 L.Ed.2d 174 (1970)); see also
Energy & Env’t Legal Inst. v. Epel, 793 F.3d 1169,
1171 (10th Cir. 2015) (Gorsuch, J.) (explaining that
“dormant commerce clause cases are said to come in
[these] three varieties”).3
3 The court in Epel compared the analytic framework applied
to dormant Commerce Clause cases to the one applied to cases
brought under the antitrust laws: “As there we find here a kind
of ‘rule of reason’ balancing test providing the background rule
of decision with more demanding ‘per se’ rules applied to discrete
subsets of cases where, over time, the Court has developed con-

18a
NAMI claims that Proposition 12 is unconstitutional on all three grounds.
(1) Discrimination Against Out Of State Commerce
Claim
Discrimination against out of state commerce
“means differential treatment of in-state and out-ofstate economic interests that benefits the former and
burdens the latter.” Oregon Waste Sys., Inc. v. Dep’t
of Envtl. Quality of State of Or., 511 U.S. 93, 99, 114
S.Ct. 1345, 128 L.Ed.2d 13 (1994). “The party challenging a regulation” on this basis “bears the burden
of establishing that a challenged statute has a discriminatory purpose or effect under the Commerce
Clause.” Int’l Franchise Ass’n, Inc. v. City of Seattle,
803 F.3d 389, 400 (9th Cir. 2015) (internal citation
and marks omitted). NAMI acknowledges that Proposition 12 is facially neutral, but contends that Proposition 12 nevertheless unconstitutionally discriminates against out of state commerce “because its purpose and effect are to protect California producers
from out-of-state competitors with lower production
costs.” PI at 7.
(a) Discriminatory Purpose
NAMI first argues that Proposition 12 has a discriminatory purpose because it is the “lineal descendent of AB 1437.” PI Reply at 6; PI at 8. That bill, as
discussed above, was passsed in 2010 to enact an instate sales ban, analogous to Proposition 12, on eggs
laid by hens kept under conditions that violated the
humane treatment requirements established by
Proposition 2. See supra § II.B. According to the legislative history, AB 1437 received at least some support
fidence that the challenged conduct is almost always likely to
prove problematic and a more laborious inquiry isn’t worth the
cost.” Epel, 793 F.3d at 1172.

19a
on grounds that it would operate to “level the playing
field so that in-state producers are not disadvantaged.” Id. NAMI’s point is that because Proposition
12 operates in the same way on pork and veal sales
as AB 1437 does with respect to egg sales, the Court
should infer that Proposition 12 is animated by the
same allegedly discriminatory purpose that appeared
in AB 1437’s legislative history. See PI at 8 (citing
Int’l Franchise Ass’n, 803 F.3d at 402 for the proposition that “[c]ourts have considered legislative history
to determine whether local action was motivated by a
discriminatory purpose”).
The Court is not convinced. The bill analyses cited
by NAMI—as well as the additional published legislative history materials reviewed by the Court and
cited in § II.B above—fail to establish that discrimination against out of state commerce, or economic
protectionism, drove passage of AB 1437. As the legislative history demonstrates, the bill author’s and
the committees’ concerns also, if not primarily, involved animal welfare and preventing consumer
health risks from food-borne bacteria thought to derive from the confinement of egg-laying hens in
crowded, high-stress spaces. See § II.B (discussing the
bill analyses). In fact, this is the only rationale for the
legislation articulated in the enacted legislation. See
Cal. Health & Safety Code § 25995 (explaining that
the legislation was driven by legislative findings related to public health reports by the Pew Commission
on Industrial Farm Production, the World Health Organization, and the Food and Agricultural Organization of the United Nations). The Court is obligated to
“assume that the objectives articulated by the legislature are actual purposes of the statute, unless examination of the circumstances forces us to conclude that
they could not have been a goal of the legislation.”

20a
Minnesota v. Clover Leaf Creamery Co., 449 U.S. 456,
463 n. 7, 101 S.Ct. 715, 66 L.Ed.2d 659 (1981) (internal citation and marks omitted) (emphasis added).
The above-mentioned evidence more than supports a
conclusion that legitimate public health interests
were “a goal” that the legislature which passed AB
1437 had in mind.
But regardless of what may, or may not have, motivated passage of AB 1437, NAMI adduces no evidence—not even the threshold amount necessary to
support a preliminary injunction, see Univ. of Texas
v. Camenisch, 451 U.S. 390, 395, 101 S.Ct. 1830, 68
L.Ed.2d 175 (1981)—to justify an inference that the
alleged “bad intent” behind AB 1437 (if any) is also
the same “bad intent” that motivated Proposition 12.
It makes no difference that Proposition 12 was enacted as an initiative, and not ordinary legislation.
NAMI could have, but did not, put forward evidence
from the initiative campaign or the California Voter’s
Information Guide (as it did in connection with its
discussion of Proposition 2, see PI Reply at 4) that
tended to show a discriminatory or protectionist intent. See Washington v. Seattle Sch. Dist. No. 1, 458
U.S. 457, 471, 102 S.Ct. 3187, 73 L.Ed.2d 896 (1982)
(reviewing evidence from initiative campaign to assess discriminatory intent in racial discrimination
suit); City of Los Angeles v. Cty. of Kern, 462 F. Supp.
2d 1105, 1114 (C.D. Cal. 2006) (“Because Measure E
was enacted as a ballot measure, the Court may look
to the nature of the initiative campaign to determine
the intent of the drafters and voters in enacting it.”).
In fact, campaign statements made to friendly instate audiences are among some of the most fruitful
sources of protectionist purpose evidence. E.g., City of
Los Angeles, 462 F. Supp. 2d at 1114 (finding evidence from campaign “that Measure E was enacted in

21a
part because of—rather than despite—its impacts on
articles of commerce flowing from Los Angeles and
Los Angeles County” and concluding that this “constitutes evidence of a discriminatory intent”). But NAMI
cites nothing to this effect.
For these reasons, the Court concludes that Proposition 12 does not have a discriminatory purpose that
would invalidate it per se.
(b) Discriminatory Effect
NAMI next argues that Proposition 12 nevertheless
has a per se unconstitutional discriminatory effect
since it “operates as a protectionist trade barrier”
that “subject[s] out-of-state competitors to Proposition 12’s confinement requirements if they want to
compete in California.” See PI at 8-14; PI Reply at 49. The problem with this argument is that Proposition 12 does not, in its contemplated application, impose “differential treatment of in-state and out-ofstate economic interests that benefits the former and
burdens the latter.” Oregon Waste, 511 U.S. at 99,
114 S.Ct. 1345. The in-state sales prohibition applies
equally to animals raised and slaughtered in California as they do to animals raised and slaughtered in
any other state. See Cal. Health & Safety § 25990(b).
“An import ban that simply effectuates a complete
ban on commerce in certain items is not discriminatory, as long as the ban on commerce does not make
distinctions based on the origin of the items.” Pac.
Nw. Venison Producers v. Smitch, 20 F.3d 1008, 1012
(9th Cir. 1994) (holding that a regulation prohibiting
the import of “fallow deer and sika deer” into State of
Washington was not discriminatory because it did not
“result in the citizens of Washington receiving benefits that are denied to others”).

22a
In this respect, Proposition 12 is nearly analogous
to the in-state sales prohibition on food products derived from force-fed birds that the Ninth Circuit refused to enjoin in Eleveurs, The plaintiffs in that case
advanced the same argument that NAMI asserts
here; namely, that “[a] state statute is unconstitutional not just when it discriminates on its face or in
its purpose but also where it has a discriminatory effect.” Appellant’s Opening Br., Ass’n des Eleveurs de
Canards et d’Oies du Quebec v. Harris, 2012 WL
5915406 at *51-52 (9th Cir. filed Nov. 16, 2012) (emphasis original).4 There, as here, plaintiffs argued
that the sales prohibition effectively discriminated
against out of state producers by requiring them to
“give up [a] competitive advantage” derived from using a certain method of production. Id. at *53-54.
4 NAMI’s contention that Eleveurs “does not address whether
a ‘facially neutral’ statute satisfies the Commerce Clause even if
its practical effect or purpose is to burden and discriminate
against out-of-state competitors” is accordingly incorrect. See PI
Reply at 6. At oral argument, NAMI’s counsel contended that
the discrimination argument raised in the Eleveurs briefing, and
rejected by the Ninth Circuit, is not controlling because that argument (based on the evidence available to the plaintiffs) principally addressed discrimination against out-of-state sellers of
duck breasts, not duck livers, and the Ninth Circuit ultimately
concluded that the sales prohibition did not apply to duck
breasts. See Eleveurs, 729 F.3d at 945 (holding that the statute
“is limited to products that are produced by force feeding a bird
for the purpose of enlarging the bird’s liver beyond normal size”
and “does not prohibit the sale of duck breasts, down jackets, or
other non-liver products from force-fed birds”). The upshot,
NAMI contends, is that any apparent holding on discrimination
in Eleveurs should be disregarded as dicta. That is not correct.
The Ninth Circuit also squarely considered whether the statute—narrowly construed only to apply to duck livers—
discriminated against plaintiffs who were out-of-state duck liver
producers. Id. at 948. And in this respect, as discussed above,
the Ninth Circuit held that it did not discriminate.

23a
Compare PI Reply at 7 (contending that Proposition
12 “strips away from out-of-state competitors the
competitive and economic advantages they have
earned for themselves and which the Commerce
Clause protects”). The Ninth Circuit rejected this argument. Finding that the sales prohibition’s “economic impact does not depend on where the items were
produced, but rather how they were produced,” the
court held that the prohibition “is not discriminatory”
in its effect. Eleveurs, 729 F.3d at 948 (emphasis original).5 Eleveurs is, in every material respect, on all
fours with the instant challenge, and its holding directs the Court to conclude that Proposition 12 does
not have a discriminatory effect that requires per se
invalidation.
The Supreme Court’s decision in Hunt v. Washington State Apple Advertising Commission, 432 U.S.
333, 97 S.Ct. 2434, 53 L.Ed.2d 383 (1977) is fully consistent with this conclusion. That case involved a
challenge to a North Carolina law that required containers of apples sold into the state to bear a United
States Department of Agriculture (“USDA”) quality
grade, and not any other. Id. at 335, 97 S.Ct. 2434.
Prior to the enactment of the North Carolina law, the
5 The Sixth Circuit reached the same conclusion in a similar
case involving disclosures related to agricultural production
methods. See Int’l Dairy Foods Ass’n v. Boggs, 622 F.3d 628, 649
(6th Cir. 2010) (holding that Ohio rule generally prohibiting
milk processors and distributors from using product labels advertising the absence of the rbST hormone in milk production
did not have a discriminatory effect because “the Rule burdens
Ohio dairy farmers and processors who do not use rbST in their
production of milk products to the same extent as it burdens
out-of-state farmers and processors not using rbST,” and, in fact,
benefits “an out-of-state processor whose production includes the
use of rbST . . . more than an Ohio processor who uses milk from
cows not treated with rbST”).

24a
State of Washington had developed and popularized
its own more rigorous and detailed apple grading system that record evidence demonstrated was “equal to
or superior to the USDA grades in all corresponding
categories,” and which had, as a result, “gained nationwide acceptance in the apple trade.” Id. at 351,
352, 97 S.Ct. 2434. The evidence demonstrated that
“Washington sellers would normally enjoy a distinct
market advantage vis-a-vis local producers” where
the more exacting Washington grades applied, since
Washington apples tended to be of greater quality
than those from North Carolina, and since the USDA
grading system did not capture these differences in
quality. Id. at 351-52, 97 S.Ct. 2434. In light of this
evidence, the Supreme Court struck down the North
Carolina law, holding that it had a discriminatory effect inter alia because it “stripp[ed] away from the
Washington apple industry the competitive and economic advantages it has earned for itself through its
expensive inspection and grading system,” and, consequently, “ha[d] a leveling effect which insidiously
operates to the advantage of local apple producers.”
Id. at 351, 352, 97 S.Ct. 2434.
Here, in contrast to Hunt, the only “competitive advantage” that NAMI contends will be stripped away
by Proposition 12 is a standard production method,
available to any meat processor in any state that allows it, to concentrate livestock in its facilities at certain densities. See PI Reply at 7-8. The State of California just happens to have determined that these
practices are inhumane and harmful. This is not a
competitive advantage—like the higher quality products and creative marketing that, in Hunt, gave
Washington apple growers an advantage over North
Carolina apple growers—but a regulatory safe harbor
for certain production methods that California,

25a
through its political process, has elected to eliminate
from meat sold into its market. See Rocky Mountain
Farmers Union v. Corey, 730 F.3d 1070, 1092 (9th
Cir. 2013) (“Rocky Mountain I”) (distinguishing Hunt
and holding that while plaintiff’s decision to locate its
ethanol plant with “[a]ccess to cheap electricity is an
advantage,” the advantage “was not ‘earned’ in the
sense meant by Hunt simply because” the regulatory
alternative preferred by plaintiff “imposed the hidden
costs of GHG emissions on others,” rather than on the
plaintiff, as the challenged regulation proposed to do);
E. Kentucky Res. v. Fiscal Court of Magoffin Cty., Ky.,
127 F.3d 532, 544 (6th Cir. 1997) (“The Commerce
Clause is not a safety valve for those who are simply
political process losers.”).
At bottom, what NAMI characterizes as a competitive advantage is ultimately just a preferred method
of production. But it is well-established that “the
dormant Commerce Clause does not . . . guarantee
Plaintiffs their preferred method of operation.” Optometrists II, 682 F.3d at 1151 (citing Exxon Corp. v.
Governor of Maryland, 437 U.S. 117, 123-27, 98 S.Ct.
2207, 57 L.Ed.2d 91 (1978)). For example, in the first
appeal of Optometrists II, the Ninth Circuit held that
even where the challenged law “deprived” the plaintiff opticians “of one eyewear sales method” that “affords [them] a sales advantage,” the Commerce
Clause was not violated because the plaintiffs “were
not precluded from operating in California” and only
needed to comply with the law, and adopt one of the
sales methods it permitted, as did every other seller.
See Nat’l Ass’n of Optometrists & Opticians
LensCrafters, Inc. v. Brown, 567 F.3d 521, 528 (9th
Cir. 2009) (“Optometrists I”).
Even to the extent NAMI members’ current processing practices actually confer a cognizable compet-

26a
itive advantage that Proposition 12 threatens, the
loss of that asserted advantage would not be discriminatory: the cost of retrofitting their facilities to comply with Proposition 12 “may be” a burden—and an
understandably expensive one—“but it is an equalopportunity” burden and “not a protectionist measure
burdening only the operators of foreign facilities.”
Maharg, Inc. v. Van Wert Solid Waste Mgmt. Dist.,
249 F.3d 544, 553 (6th Cir. 2001) (holding that county
surcharge did not have a discriminatory effect over
objection that, per Hunt, surcharge eliminated plaintiff’s competitive advantage).6
Nor is the Court persuaded by NAMI’s remaining
arguments that (i) Proposition 12 has a discriminatory effect because in-state producers had six years to
comply with Proposition 2’s animal confinement regulations, whereas out of state NAMI members may, in
some respects, have less “lead time,”7 or that (ii)
6 NAMI’s reliance on Baldwin v. G.A.F. Seelig, Inc., 294 U.S.
511, 527, 55 S.Ct. 497, 79 L.Ed. 1032 (1935) and CloverlandGreen Spring Dairies, Inc. v. Pennsylvania Milk Marketing
Board, 298 F.3d 201, 213 (3d Cir. 2002), which applies Baldwin,
is misplaced. See PI Reply at 8. As discussed further below,
courts including the Supreme Court distinguish the application
of the per se rule in those cases because they involve challenges
to price-setting statutes. See infra § IV.B.2. Whether, for example, the law in Cloverland-Green is styled as an impermissible
attempt to export a “minimum price floor” pursuant to Baldwin,
or an impermissible attempt to strip away a competitive pricing
advantage pursuant to Hunt, a material factor in both analyses
is the price-setting nature of the challenged regulations—a factor not present here.
7 The Court acknowledges that, in this respect, the present
facts could be distinguishable from those raised in Eleveurs. In
that case, the sales prohibition came into effect against in-state
and out-of-state producers at the same time, so the “lead time”
allotted for compliance was not an issue in the discrimination
analysis. By contrast, because aspects of Proposition 12 that ap-

27a
Proposition 12 has a discriminatory effect because
regulators may construe the sales prohibition to exempt “bob” veal that is almost exclusively culled from
California dairy farms. See PI at 10-11; PI Reply at 45, 8-9. These arguments are premature. As the parties acknowledge, California has yet to issue any regulations implementing Proposition 12. See PI at 5.
Those regulations might, or they might not, have the
“potential” discriminatory effects that NAMI contends they could. See PI at 10.8 But at this juncture,
ply pre-existing provisions of Proposition 2 to out-of-state producers may give those out-of-state producers less lead time for
compliance than Proposition 2 gave in-state producers, plaintiffs
could have an arguable basis to claim that Proposition 12 discriminates against out-of-state commerce. However, as discussed below, the Court concludes that this argument is premature prior to the release of the relevant implementing regulations.
8 At oral argument, counsel for the State expressed that he
“expects” the forthcoming regulations to implement compliance
deadlines that comport with the dates set forth by Cal. Health &
Safety Code § 25991(e). However, the compliance dates set forth
by that provision only relate to new minimum square footage
requirements that Proposition 12 established for the first time
in 2018. Id. at § 25991(e)(2)-(3). Even assuming, therefore, that
the effective dates set forth by the statute will be the dates that
the pending implementing regulations apply—and counsel for
the State could not confirm with certainty that they would be—
California farmers, as well as out-of-state farmers, will have the
same amount of “lead time” to comply with these new minimum
square footage requirements.

Moreover, although Proposition 12 also requires out-of-state
farmers and meat packers who sell into California to comply
with Proposition 2’s pre-existing prohibitions against confining a
covered animal “in a manner that prevents such animal from
lying down, standing up, fully extending his or her limbs,” or
“turning around freely”—standards that California farmers and
meat packers had six years with which to comply when they
were first enacted—Proposition 12 is silent as to when these requirements shall effectively apply to in-state sales by out-of-

28a
the speculative possibility that state regulators may
interpret and apply Proposition 12 in a manner that
NAMI argues will impose discriminatory effects upon
its out-of-state members does not raise any serious
questions that justify a preliminary injunction.9
state farmers and meat packers. See Cal. Health & Safety Code
§ 25991(e)(1) (recodifying the standards set by Proposition 2
within the framework established by Proposition 12); see also
Cal. Atty Gen., Initiative No. 17-0026 at 2-4 (received Aug. 29,
2017) (text of Proposition 12’s amendments to Cal. Health &
Safety Code §§ 25990-25993.1). The only compliance dates set
forth by Proposition 12 relate to the new requirements addressed above. It is therefore premature, prior to the issuance of
regulations implementing the application of these pre-existing
prohibitions, to know whether or not out out-of-state farmers
and meat packers will be granted less (or more) “lead time” to
comply with the pre-existing prohibitions than the in-state
farmers received after the passage of Proposition 2, and thus
premature to determine whether a discrepancy in the lead time
allotted, if any, amounts to discrimination in violation of the
commerce clause.
9 Prematurity aside, the Court is also less than sanguine
about the merits of NAMI’s “lead time” argument. For one thing,
NAMI cites no case law for the proposition that a statute can
have a discriminatory effect if a prior statute, imposing the
same regulatory obligations, gives in-state entities more time to
comply. Also, as intervenors’ counsel raised at oral argument,
some out-of-state producers began to comply with the preexisting requirements imposed on California producers by Proposition 2 well-before voters enacted Proposition 12 to apply those
requirements to out-of-state producers that sell into the California market. See Ikizler Decl., ¶ 22 (reproducing 2014 statement
from Tyson Foods “urg[ing]” its pork producing members to “allow sows of all sizes to stand, turn around, lie down and stretch
their legs,” mirroring the requirements established by Proposition 2 and incorporated into Proposition 12), ¶ 49 n. 62 (citing to
United Egg Producers’ statistics indicating that many out-ofstate egg producers are already “currently compliant” with
Proposition 12’s requirements). This is not surprising, given that
Massachusetts and the European Union also enacted comparable animal confinement standards in the years between the pas-

29a
***
For the reasons discussed above, the Court concludes that NAMI’s discriminatory effect claim fails
to raise any questions on the merits that would support the issuance of a preliminary injunction.
(2) Direct Regulation Of Extraterritorial Conduct
Claim
NAMI next claims that Proposition 12 attempts to
“impose confinement standards for farm animals located outside California” in violation of “the extraterritoriality doctrine.” PI at 18. This is the doctrine applied by the Supreme Court in three cases involving
state statutes that attempted to fix the prices for
products sold out of state: Baldwin v. G.A.F. Seelig,
Inc., 294 U.S. 511, 55 S.Ct. 497, 79 L.Ed. 1032 (1935),
Brown–Forman Distillers Corp. v. N.Y. State Liquor
Authority, 476 U.S. 573, 106 S.Ct. 2080, 90 L.Ed.2d
552 (1986), and Healy v. Beer Institute, 491 U.S. 324,
109 S.Ct. 2491, 105 L.Ed.2d 275 (1989). In each of
these cases, the Supreme Court struck down the pricing laws for attempting to regulate “commerce occurring wholly outside [their states’] boundaries.” Healy,
491 U.S. at 336, 109 S.Ct. 2491.
The Supreme Court has since indicated that the extraterritoriality doctrine’s application is essentially
limited to cases involving the sorts of price-setting
statutes that those cases addressed. See Pharm. Research & Mfrs. of Am. v. Walsh, 538 U.S. 644, 669,
123 S.Ct. 1855, 155 L.Ed.2d 889 (2003). In Walsh, the
Supreme Court considered a Maine law authorizing
the state to negotiate with drug manufacturers to obtain rebates on prescription drugs for Medicaid recipsage of Proposition 2 and Proposition 12. See id., ¶ 42-44 (discussing the timing and practical effects of the confinement laws
in those jurisdictions).

30a
ients. Where the state could not obtain an agreement
from a manufacturer, the law provided that the manufacturer’s in-state Medicaid sales would become subject to a “prior authorization” procedure administered
by the state. Id. at 649-50, 123 S.Ct. 1855. The Supreme Court rejected the argument that the provision
was per se invalid pursuant to the extraterritoriality
doctrine, holding that “[t]he rule that was applied in
Baldwin and Healy” was “not applicable” to the
Maine statute because, “unlike [the] price control or
price affirmation statutes” in those cases, “the Maine
Act does not regulate the price of any out-of-state
transaction, either by its express terms or by its inevitable effect,” “does not insist that manufacturers sell
their drugs to a wholesaler for a certain price,” and
does “not t[ie] the price of its in-state products to outof-state prices.” Id. at 669, 123 S.Ct. 1855.
Following Walsh, the Ninth Circuit has held that
the doctrine is “not applicable to a statute that does
not dictate the price of a product and does not tie the
price of its in-state products to out-of-state prices.”
Chinatown Neighborhood Ass’n v. Harris, 794 F.3d
1136, 1146 (9th Cir. 2015) (quoting Eleveurs, 729
F.3d at 951); accord Epel, 793 F.3d at 1173-75 (Gorsuch, J.) (holding that “the Supreme Court has emphasized as we do that the Baldwin line of cases concerns only ‘price control or price affirmation statutes’
that involve ‘tying the price of . . . in-state products to
out-of-state prices,” ’ and rejecting application of doctrine to statute that “isn’t a price control statute” and
“doesn’t link prices paid in Colorado with those paid
out of state”); IMS Health Inc. v. Mills, 616 F.3d 7,
29-30 (1st Cir. 2010) (holding that the doctrine only
applied to price-setting laws, and refusing to apply
the doctrine to a state law regulating the disclosure
and transmission of patient identifying information

31a
for marketing purposes), vacated on other grounds,
564 U.S. 1051, 131 S. Ct. 3091, 180 L.Ed.2d 911
(2011).10
NAMI does not contend that Proposition 12 attempts to control the price of veal or pork, or link
prices paid for veal or pork in California to those paid
out of state. There is therefore no question that, were
the limitation recognized by Walsh and adopted by
Eleveurs and Chinatown Neighborhood applied, the
extraterritoriality doctrine would have no application
10 In addition to concluding that the Supreme Court has
strictly limited the extraterritoriality doctrine, some judges and
commentators have questioned the extraterritoriality doctrine’s
continued vitality. See Am. Beverage Ass’n v. Snyder, 735 F.3d
362, 381 (6th Cir. 2013) (Sutton, J., concurring) (observing that
there is not “a single Supreme Court dormant Commerce Clause
holding”—Healy, Brown-Forman, and Baldwin included—“that
relied exclusively on the extraterritoriality doctrine to invalidate
a state law,” and concluding that, in light of the manifold changes in the way interstate commerce is actually conducted, the extraterritorial doctrine has become “a relic of the old world with
no useful role to play in the new”); Epel, 793 F.3d at 1175 (Gorsuch, J.) (characterizing the extraterritoriality doctrine as the
“the most dormant . . . in all of dormant commerce clause jurisprudence,” expressing concerns that the doctrine “risks serious
problems of overinclusion,” and suggesting that the Baldwin
line of cases might be better understood as “instantiations . . . of
the antidiscrimination rule” rather than “a distinct line of
dormant commerce clause jurisprudence”); IMS Health, 616
F.3d at 29 n.27 (same); see also Brannon P. Denning, Extraterritoriality and the Dormant Commerce Clause: A Doctrinal PostMortem, 73 La. L. Rev. 979, 998–99 (2013), and, Jack L. Goldsmith & Alan O. Sykes, The Internet and the Dormant Commerce Clause, 110 Yale L.J. 785, 806 & n. 90 (2001) (both discussed in Epel and American Beverage). Because the Supreme
Court has not expressly overruled the doctrine, the Court analyzes its application here. See State Oil Co. v. Khan, 522 U.S. 3,
20, 118 S.Ct. 275, 139 L.Ed.2d 199 (1997) (stating that it is the
Supreme Court’s “prerogative alone to overrule one of its precedents”).

32a
to this case. Instead, NAMI argues that these cases
misread Walsh, and that the Ninth Circuit’s en banc
decision in Sam Francis Foundation v. Christie’s,
Inc., 784 F.3d 1320 (9th Cir. 2015) (en banc) supersedes the extraterritoriality holding in Eleveurs, and
renders the portion of the panel decision addressing
the scope of the doctrine in the subsequently-decided
Chinatown Neighborhood case contrary to circuit
precedent. See PI Reply at 12-13 (also citing Daniels
Sharpsmart, Inc. v. Smith, 889 F.3d 608 (9th Cir.
2018), a panel decision applying the extraterritoriality doctrine following Christie’s, for the proposition
that the extraterritoriality doctrine continues to apply in cases not involving price-setting statutes).
Christie’s concerned a California law that required
“the payment of royalties to the artist after a sale of”
that artist’s “fine art whenever ‘the seller resides in
California or the sale takes place in California.’ ”
Christie’s, 784 F.3d at 1323. The en banc panel held
that the first clause violated the dormant Commerce
Clause, as it applied to out of state sales, because
“[t]hose sales have no necessary connection with the
state other than the residency of the seller.” Id. The
Court quoted Healy for the proposition that the
“Commerce Clause precludes the application of a
state statute to commerce that takes place wholly
outside of the State’s borders, whether or not the
commerce has effects within the State.” Id. (internal
quotation marks omitted) (emphasis added). Although the opinion distinguished Eleveurs on its
facts—explaining that that case “concerned state
laws that regulated in-state conduct with allegedly
significant out-of-state practical effects” rather than
“regulation of wholly out of state conduct,” id. at
1324—it did not address, let alone reject, the legal
proposition stated in Eleveurs, and applied in Walsh,

33a
that the extraterritoriality doctrine had been, or is,
limited in its application to price-setting laws.
Whether or not Christie’s implicitly revived the extraterritoriality doctrine’s application to non-price
regulations—a proposition the Court hesitates to accept given the en banc panel’s silence, the Supreme
Court’s holding in Walsh, and the persuasive opinions
in Epel and American Beverage, discussed above—
NAMI arguably has, at the very least, raised an argument that the doctrine could apply to Proposition
12. See e.g., Publius v. Boyer-Vine, 237 F. Supp. 3d
997, 1023-24 (E.D. Cal. 2017) (concluding that Christie’s “make[s] clear that [the] extraterritoriality doctrine applies beyond statutes that regulate out-ofstate prices”).
But the next step is to ask whether there is any serious contention that Proposition 12 violates the extraterritoriality rule as applied in Christie’s. And on
this question, there can be no dispute: Christie’s holds
that a state regulation violates the extraterritoriality
doctrine only if it regulates conduct that takes place
“wholly outside” a state’s jurisdiction, and not if it
regulates “in-state conduct with allegedly significant
out-of-state practical effects.” Christie’s, 784 F.3d at
1323-24. Pursuant to this rule, and like the statutes
upheld in the cases that Christie’s distinguishes,
Proposition 12’s in-state sales prohibition only applies to “in-state conduct”—sales of meat products in
California—not conduct that takes place “wholly outside” California. Id. It is accordingly a perfectly lawful exercise of California’s “state sovereignty protected by the Constitution.” Rocky Mountain Farmers
Union v. Corey, 913 F.3d 940, 952 (9th Cir. 2019)
(“Rocky Mountain II”) (citing Christie’s and holding
that “regulations that have upstream effects on how
sellers who sell to California buyers produce their

34a
goods” are not “necessarily extraterritorial,” and that
“subjecting both in and out-of-jurisdiction entities to
the same regulatory scheme to make sure that out-ofjurisdiction entities are subject to consistent . . .
standards is a traditional use of the State’s police
power” that does not violate the extraterritoriality
principle); see also Chinatown Neighborhood Ass’n,
794 F.3d at 1145 (holding that laws like Proposition
12 consistently “pass[ ] Commerce Clause muster”—
“even when” the law in question “has significant extraterritorial effects”—because “those effects result
from” the legitimate “regulation of in-state conduct);
Publius, 237 F. Supp. 3d at 1023 (concluding that because “Walsh, [Eleveurs], and [Rocky Mountain] all
concerned state laws that regulated in-state conduct
which were found not to directly regulate extraterritorial behavior,” the extraterritoriality doctrine “was
inapplicable” in those cases).11
11 C & A Carbone, Inc. v. Town of Clarkstown, N.Y., 511 U.S.
383, 114 S.Ct. 1677, 128 L.Ed.2d 399, (1994), discussed in
NAMI’s briefing and at oral argument, does not suggest otherwise. Carbone involved a challenge to the defendant’s “flow control” ordinance that required all municipal waste to be processed
by a facility located within the town’s boundaries. However, the
Supreme Court struck down the law in Carbone on grounds that
it had a discriminatory purpose and effect, not that it violated
the extraterritoriality doctrine. Id. at 386-87, 391-92, 114 S.Ct.
1677 (holding that “flow control ordinance discriminates” since
its “avowed purpose” was to “retain the processing fees” over
local wastewater, and since the ordinance’s effect was to “allow[ ] only the favored operator to process waste that is within
the limits of the town”). The language in the Carbone opinion
that NAMI relies upon—that “States and localities may not attach restrictions to exports or imports in order to control commerce in other States” since doing so “would extend the town’s
police power beyond its jurisdictional bounds,” id. at 393, 114
S.Ct. 1677 (citing Baldwin, 294 U.S. at 511, 55 S.Ct. 497)—is
dicta summarizing the rule set forth by Baldwin, Even if that
principle were not restricted by the Supreme Court’s subsequent

35a
The Court accordingly concludes that NAMI has
not raised any serious questions on the merits of its
extraterritoriality claim.
(3) Substantial Burden On Interstate Commerce
Claim
NAMI claims that even if Proposition 12 is not discriminatory or an impermissible direct regulation of
extraterritorial conduct, it should still be struck down
pursuant to Pike v. Bruce Church, Inc., 397 U.S. 137,
90 S.Ct. 844, 25 L.Ed.2d 174 (1970) because “the burden [it] impose[s] on [interstate] commerce is clearly
excessive in relation to the putative local benefits.”
Id. at 142, 90 S.Ct. 844. “[U]nder Pike, a plaintiff
must first show that the statute imposes a substantial burden before the court will ‘determine whether
the benefits of the challenged laws are illusory,’ ” or
otherwise inadequate, to justify the burden. Eleveurs,
729 F.3d at 951-52 (quoting Optometrists II, 682 F.3d
at 1155).
decision in Walsh, the applicable version of the Baldwin (and
Healy) rule is the one stated in Christie’s, applied in Rocky
Mountain II, and analyzed above: a state regulation violates the
extraterritoriality doctrine if it regulates conduct that takes
place “wholly outside” a state’s jurisdiction, but not if it regulates “in-state conduct with allegedly significant out-of-state
practical effects.” Christie’s, 784 F.3d at 1323-24.
Also, to the extent the Seventh Circuit’s decision in Legato
Vapors, LLC v. Cook, 847 F.3d 825 (7th Cir. 2017) suggests that
the extraterritoriality principle nevertheless prohibits states
from regulating production methods, rather than the products
themselves, that is not the law of this circuit, and inconsistent
with the Ninth Circuit’s precedents in the low carbon fuel
standard cases. See, e.g., Rocky Mountain II, 913 F.3d at 952
(reaffirming prior holding that “regulations that have upstream
effects on how sellers who sell to California buyers produce their
goods” survived scrutiny under the dormant commerce clause)
(emphasis added).

36a
“[M]ost statutes that impose a substantial burden
on interstate commerce do so because they are discriminatory” or purport to regulate extraterritorially,
as discussed above. Id. at 952 (citing Optometrists II,
682 F.3d at 1150); see Smitch, 20 F.3d at 1015 (stating that the Supreme Court has focused on “certain
types of impacts,” including “impacts on commerce
beyond the borders of the defendant state, and impacts that fall more heavily on out-of-state interests”). “[L]ess typically,” courts have found that nondiscriminatory, non-extraterritorial statutes may still
“impose significant burdens on interstate commerce”
when they cause the “ ‘inconsistent regulation of activities that are inherently national or require a uniform system of regulation.’ ” Id. (quoting Optometrists
II, 682 F.3d at 1148). The need for uniformity generally arises in challenges to laws affecting “interstate
transportation”—such as cases that cause “disruption
of travel and shipping,” Smitch, 20 F.3d at 1015—as
well as cases involving sports leagues. See Eleveurs,
729 F.3d at 952 (observing that “examples of ‘courts
finding uniformity necessary’ fall into the categories
of ‘transportation’ or ‘professional sports leagues’ ”)
(citing Valley Bank of Nevada v. Plus Sys., Inc., 914
F.2d 1186, 1192 (9th Cir. 1990)). The Ninth Circuit
has held that “a regulation [which] does not regulate
activities that inherently require a uniform system of
regulation and does not otherwise impair the free
flow of materials and products across state borders . . . is not a significant burden on interstate
commerce.” Optometrists II, 682 F.3d at 1154–55.
At the outset, the Court finds—and NAMI appears
to acknowledge—that Proposition 12 does not present
the potential for the inconsistent regulation of activities that require a uniform system of regulation. Id.
at 15 (ceding the argument, but contending that “in-

37a
terference with uniform operations” is “not the only
way[ ]” to demonstrate a substantial burden). Instead—and setting aside the discrimination and extraterritoriality arguments already addressed and
rejected above—NAMI contends and submits affidavits to the effect that Proposition 12 will substantially
burden interstate commerce because it “will likely
drive many farmers, packers, and processors from the
California market” and “force those who remain to
bear increased costs” to comply with California’s animal confinement standards. See PI Reply at 16-17.12
But, as discussed above in connection with NAMI’s
discriminatory effects argument, these anticipated
effects do not demonstrate that Proposition 12 will
interfere with the flow of veal or pork products into
California inasmuch as they demonstrate NAMI’s
disappointment that Proposition 12 “precludes a preferred, more profitable method of operating in a retail
market.” Optometrists II, 682 F.3d at 1154. As with
the optometrists and opticians who challenged the
regulation upheld in Optometrists I and Optometrists
II, “any” farmer, packer, or processor “remains free to
import [their products] originating anywhere into
California and sell it there.” Optometrists II, 682 F.3d
at 1155 (holding that the challenged regulation did
not substantially burden interstate commerce pursuant to Pike as a result).
This conclusion is consistent with the Supreme
Court’s decision in Pike itself, which held that an order by an Arizona state agricultural official requiring
a cantaloupe farmer to package his harvested cantaloupes within the state, and not across the border in
California, violated the dormant commerce clause.
12 NAMI’s counsel relied exclusively on these affidavits at oral
argument to contend that Proposition 12 imposes a “substantial
burden” on interstate commerce.

38a
See Pike, 397 U.S. at 145, 90 S.Ct. 844. NAMI cites to
the facts in Pike for the proposition that a state rule
may substantially burden interstate commerce if it
has “the practical effect . . . to compel [a] company to
build packing facilities . . . that would take many
months to construct and would cost approximately
$200,000.” Id. at 140, 90 S.Ct. 844. Compare Bakke
Decl. ¶ 11, Catelli Decl. ¶¶ 8-10, Friesen Decl. ¶¶ 910, Darrell Decl. ¶¶ 10-15, Neff Decl. ¶¶ 4-13, Rennells Decl. ¶¶ 9-16, Turner Decl. ¶¶ 8-17, Bollum
Decl. ¶¶ 5-11 (attesting that compliance with Proposition 12 would require NAMI members to expend
millions of dollars over many months, or years, to
construct or redesign their facilities). Although the
proposition NAMI cites is a correct factual statement
of the burden imposed by the Arizona order at issue,
the reason that order interfered with interstate commerce is that it effectively required cantaloupe producers to consolidate every stage of cantaloupe production within Arizona as a condition upon doing
business across state lines. See Pike, 397 U.S. at 145,
90 S.Ct. 844 (explaining that “the Court has viewed
with particular suspicion state statutes requiring
business operations to be performed in the home
State that could more efficiently be performed elsewhere”).
Proposition 12 imposes no similar barrier to conducting commerce across state lines: it is directed to
how meat products are produced, not where, and
compliance with Proposition 12 does not require a
farmer, packer, or processor to move its operations to
California. To the contrary, the regulation applies
evenly no matter where production takes place. The
gravamen of NAMI’s “substantial burden” argument
is therefore ultimately a complaint about the cost of
complying with Proposition 12’s requirements. How-

39a
ever, “[d]emonstrating that state regulations impose
substantial costs on interstate operations is not sufficient to establish a burden calling for balancing under Pike.” S. Pac. Transp. Co. v. Pub. Utilities
Comm’n of State of Cal., 647 F. Supp. 1220, 1227
(N.D. Cal. 1986), aff’d, 820 F.2d 1111 (9th Cir. 1987)
(citing Bibb v. Navajo Freight Lines, 359 U.S. 520,
526, 79 S.Ct. 962, 3 L.Ed.2d 1003 (1959) and Burlington Northern Railroad Co. v. Department of Public
Service, 763 F.2d 1106, 1114 (9th Cir. 1985) (“The
claims by Burlington Northern that operation of the
Browning station results in a loss to the company
does not, without more, suggest that the Montana
statute impedes substantially the free flow of commerce from state to state.”)).
Because there is no serious argument that Proposition 12 imposes any substantial burden on interstate
commerce, as that term is understood, the Court concludes that NAMI has not raised a serious question
as to its Pike claim.
***
For the reasons discussed in this section, the Court
concludes that NAMI fails to raise any questions on
the merits of its three commerce clause claims that
would support the issuance of a preliminary injunction.
2. Remaining Preliminary Injunction Factors
The Court recognizes that complying with Proposition 12 could impose potentially significant costs upon at least some NAMI members. See, e.g., Bakke
Decl. ¶ 11, Catelli Decl. ¶¶ 8-10, Friesen Decl. ¶¶ 910, Darrell Decl. ¶¶ 10-15, Neff Decl. ¶¶ 4-13, Rennells Decl. ¶¶ 9-16, Turner Decl. ¶¶ 8-17, Bollum
Decl. ¶¶ 5-11. Since the Eleventh Amendment may
prevent the recovery of these costs, the Ninth Circuit

40a
has held that these potentially noncompensable money damages can constitute irreparable injury. See
California Pharmacists Ass’n v. Maxwell-Jolly, 563
F.3d 847, 852 (9th Cir. 2009), vacated on other
grounds, 565 U.S. 606, 132 S.Ct. 1204, 182 L.Ed.2d
101 (2012) (holding that money damages are irreparable where a plaintiff can “obtain no remedy in
damages against the state because of the Eleventh
Amendment”); accord Video Gaming Techs., Inc. v.
Bureau of Gambling Control, 356 F. App’x 89, 93 (9th
Cir. 2009) (holding that “monetary injuries may be
irreparable if Eleventh Amendment sovereign immunity will bar a party from ever recovering those
damages in federal court”).
However, in light of the Court’s conclusion that
there are no serious questions regarding the merits of
NAMI’s constitutional challenge, the Court declines
to address NAMI’s arguments on the remaining irreparable harm and balance of hardships factors. See
Global Horizons, Inc. v. United States DOL, 510 F.3d
1054, 1058 (9th Cir. 2007) (“Once a court determines
a complete lack of probability on the success or serious questions going to the merits, its analysis may
end, and no further findings are necessary.”).
NAMI’s motion for a preliminary injunction is DENIED.
V. CONCLUSION
In accordance with the foregoing, the Court
GRANTS intervenors’ motion to intervene in this action, and DENIES plaintiff’s motion for preliminary
injunction.
IT IS SO ORDERED.

41a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 19-56408
————
NORTH AMERICAN MEAT INSTITUTE,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his official capacity as Attorney
General of California; et al.,
Defendants-Appellees,
THE HUMANE SOCIETY OF THE UNITED STATES; et al.,
Intervenor-Defendants-Appellees.
————
Appeal from the United States District Court
for the Central District of California, Los Angeles
Christina A. Snyder, District Judge, Presiding,
D.C. No. 2:19-cv-08569-CAS-FFM
————
FILED December 23, 2020
————
ORDER
————

42a
Before: CALLAHAN and IKUTA, Circuit Judges, and
BENCIVENGO,* District Judge.
The panel has unanimously voted to deny appellant’s petition for panel rehearing. Judge Ikuta and
Judge Callahan voted to deny the petition for rehearing en banc and Judge Bencivengo so recommended.
The petition for rehearing en banc was circulated to
the judges of the court, and no judge requested a vote
for en banc consideration.
The petition for rehearing and the petition for rehearing en banc (Dkt. 52) are DENIED.

* The Honorable Cathy Ann Bencivengo, United States District Judge for the Southern District of California, sitting by designation.

43a
APPENDIX D
STATUTORY PROVISION INVOLVED
————
PROPOSITION 12
This initiative measure is submitted to the people
in accordance with the provisions of Section 8 of Article II of the California Constitution.
This initiative measure amends and adds sections
to the Health and Safety Code; therefore, existing
provisions proposed to be deleted are printed in
strikeout type and new provisions proposed to be
added are printed in italic type to indicate that they
are new.
PROPOSED LAW
The people of the State of California do enact as follows:
SECTION 1. This act shall be known, and may be
cited, as the Prevention of Cruelty to Farm Animals
Act.
SEC. 2. The purpose of this act is to prevent animal cruelty by phasing out extreme methods of farm
animal confinement, which also threaten the health
and safety of California consumers, and increase the
risk of foodborne illness and associated negative fiscal impacts on the State of California.
SEC. 3. Section 25990 of the Health and Safety
Code is amended to read:
25990. PROHIBITIONS. In addition to other applicable provisions of law,:
(a) a person A farm owner or operator within the
state shall not tether or confine knowingly cause any

44a
covered animal, to be confined in a cruel manner. on a
farm, for all or the majority of any day, in a manner
that prevents such animal from:
(a) Lying down, standing up, and fully extending
his or her limbs; and
(b) Turning around freely.
(b) A business owner or operator shall not knowingly engage in the sale within the state of any of the following:
(1) Whole veal meat that the business owner or operator knows or should know is the meat of a covered
animal who was confined in a cruel manner.
(2) Whole pork meat that the business owner or
operator knows or should know is the meat of a covered animal who was confined in a cruel manner, or
is the meat of immediate offspring of a covered animal who was confined in a cruel manner.
(3) Shell egg that the business owner or operator
knows or should know is the product of a covered animal who was confined in a cruel manner.
(4) Liquid eggs that the business owner or operator
knows or should know are the product of a covered
animal who was confined in a cruel manner.
SEC. 4. Section 25991 of the Health and Safety
Code is amended to read:
25991. DEFINITIONS. For the purposes of this
chapter, the following terms have the following meanings:
(a) “Breeding pig” means any female pig of the porcine species kept for the purpose of commercial breeding who is six months or older or pregnant.

45a
(b) “Business owner or operator” means any person
who owns or controls the operations of a business.
(c) “Cage-free housing system” means an indoor or
outdoor controlled environment for egg-laying hens
within which hens are free to roam unrestricted; are
provided enrichments that allow them to exhibit natural behaviors, including, at a minimum, scratch areas, perches, nest boxes, and dust bathing areas; and
within which farm employees can provide care while
standing within the hens’ usable floorspace. Cagefree housing systems include, to the extent they comply with the requirements of this subdivision, the following:
(1) Multitiered aviaries, in which hens have access
to multiple elevated platforms that provide hens with
usable floorspace both on top of and underneath the
platforms.
(2) Partially slatted systems, in which hens have
access to elevated flat platforms under which manure
drops through the flooring to a pit or litter removal
belt below.
(3) Single-level all-litter floor systems bedded with
litter, in which hens have limited or no access to elevated flat platforms.
(4) Any future systems that comply with the requirements of this subdivision.
(a)(d) “Calf raised for veal” means any calf of the
bovine species kept for the purpose of producing the
food product described as veal.
(e) “Confined in a cruel manner” means any one of
the following acts:
(1) Confining a covered animal in a manner that
prevents the animal from lying down, standing up,

46a
fully extending the animal’s limbs, or turning around
freely.
(2) After December 31, 2019, confining a calf raised
for veal with less than 43 square feet of usable floorspace per calf.
(3) After December 31, 2021, confining a breeding
pig with less than 24 square feet of usable floorspace
per pig.
(4) After December 31, 2019, confining an egglaying hen with less than 144 square inches of usable
floorspace per hen.
(5) After December 31, 2021, confining an egglaying hen with less than the amount of usable floorspace per hen required by the 2017 edition of the
United Egg Producers’ Animal Husbandry Guidelines
for U.S. Egg-Laying Flocks: Guidelines for Cage-Free
Housing or in an enclosure other than a cage-free
housing system.
(b)(f) “Covered animal” means any pig during
pregnancy, calf raised for veal, breeding pig, or egglaying hen who is kept on a farm.
(c)(g) “Egg-laying hen” means any female domesticated chicken, turkey, duck, goose, or guinea-fowl
guineafowl kept for the purpose of egg production.
(d)(h) “Enclosure” means any cage, crate, or other a
structure (including what is commonly described as a
“gestation crate” for pigs; a “veal crate” for calves; or
a “battery cage” for egg-laying hens) used to confine a
covered animal or animals.
(e)(i) “Farm” means the land, building, support facilities, and other equipment that are wholly or partially used for the commercial production of animals
or animal products used for food or fiber; and does not

47a
include live animal markets., establishments at
which mandatory inspection is provided under the
Federal Meat Inspection Act (21 U.S.C. Sec. 601 et
seq.), or official plants at which mandatory inspection
is maintained under the federal Egg Products Inspection Act (21 U.S.C. Sec. 1031 et seq.).
(j) “Farm owner or operator” means any person
who owns or controls the operations of a farm.
(f)(k) “Fully extending his or her the animal’s
limbs” means fully extending all limbs without touching the side of an enclosure, including, in the case of
egg-laying hens, fully spreading both wings without
touching the side of an enclosure or other egg-laying
hens or another animal.
(l) “Liquid eggs” means eggs of an egg-laying hen
broken from the shells, intended for human food, with
the yolks and whites in their natural proportions, or
with the yolks and whites separated, mixed, or mixed
and strained. Liquid eggs do not include combination
food products, including pancake mixes, cake mixes,
cookies, pizzas, cookie dough, ice cream, or similar
processed or prepared food products, that are comprised of more than liquid eggs, sugar, salt, water,
seasoning, coloring, flavoring, preservatives, stabilizers, and similar food additives.
(g)(m) “Person” means any individual, firm, partnership, joint venture, association, limited liability
company, corporation, estate, trust, receiver, or syndicate.
(h) “Pig during pregnancy” means any pregnant
pig of the porcine species kept for the primary purpose of breeding.(n) “Pork meat” means meat, as defined in Section 900 of Title 3 of the California Code
of Regulations as of August 2017, of a pig of the porcine species, intended for use as human food.

48a
(o) “Sale” means a commercial sale by a business
that sells any item covered by this chapter, but does
not include any sale undertaken at an establishment
at which mandatory inspection is provided under the
Federal Meat Inspection Act (21 U.S.C. Sec. 601 et
seq.), or any sale undertaken at an official plant at
which mandatory inspection is maintained under the
federal Egg Products Inspection Act (21 U.S.C. Sec.
1031 et seq.). For purposes of this section, a sale shall
be deemed to occur at the location where the buyer
takes physical possession of an item covered by Section 25990.
(p) “Shell egg” means a whole egg of an egg-laying
hen in its shell form, intended for use as human food.
(i)(q) “Turning around freely” means turning in a
complete circle without any impediment, including a
tether, and without touching the side of an enclosure
or another animal.
(r) “Uncooked” means requiring cooking prior to
human consumption.
(s) “Usable floorspace” means the total square footage of floorspace provided to each covered animal, as
calculated by dividing the total square footage of
floorspace provided to the animals in an enclosure by
the number of animals in that enclosure. In the case
of egg-laying hens, usable floorspace shall include
both groundspace and elevated level flat platforms
upon which hens can roost, but shall not include
perches or ramps.
(t) “Veal meat” means meat, as defined in Section
900 of Title 3 of the California Code of Regulations as
of August 2017, of a calf raised for veal intended for
use as human food.

49a
(u) “Whole pork meat” means any uncooked cut of
pork, including bacon, ham, chop, ribs, riblet, loin,
shank, leg, roast, brisket, steak, sirloin, or cutlet,
that is comprised entirely of pork meat, except for
seasoning, curing agents, coloring, flavoring, preservatives, and similar meat additives. Whole pork meat
does not include combination food products, including
soups, sandwiches, pizzas, hotdogs, or similar processed or prepared food products, that are comprised
of more than pork meat, seasoning, curing agents,
coloring, flavoring, preservatives, and similar meat
additives.
(v) “Whole veal meat” means any uncooked cut of
veal, including chop, ribs, riblet, loin, shank, leg,
roast, brisket, steak, sirloin, or cutlet, that is comprised entirely of veal meat, except for seasoning, curing agents, coloring, flavoring, preservatives, and
similar meat additives. Whole veal meat does not include combination food products, including soups,
sandwiches, pizzas, hotdogs, or similar processed or
prepared food products, that are comprised of more
than veal meat, seasoning, curing agents, coloring,
flavoring, preservatives, and similar meat additives.
SEC. 5. Section 25992 of the Health and Safety
Code is amended to read:
25992.

EXCEPTIONS. This chapter shall not apply:

(a) During scientific or agricultural medical research.
(b) During examination, testing, individual treatment, or operation for veterinary purposes.
(c) During transportation.
(d) During rodeo exhibitions, state or county fair
exhibitions, 4-H programs, and similar exhibitions.

50a
(e) During the slaughter of a covered animal in accordance with the provisions of Chapter 6 (commencing with Section 19501) of Part 3 of Division 9 of the
Food and Agricultural Code, relating to humane
methods of slaughter, and other applicable law and
regulations.
(f) To a breeding pig during the seven-day five-day
period prior to the breeding pig’s expected date of giving birth, and any day that the breeding pig is nursing piglets.
(g) During temporary periods for animal husbandry purposes for no more than six hours in any 24hour period, and no more than 24 hours total in any
30-day period.
SEC. 6. Section 25993 of the Health and Safety
Code is amended to read:
25993. ENFORCEMENT. (a) The Department of
Food and Agriculture and the State Department of
Public Health shall jointly promulgate rules and regulations for the implementation of this act by September 1, 2019.
(b) Any person who violates any of the provisions of
this chapter is guilty of a misdemeanor, and upon
conviction thereof shall be punished by a fine not to
exceed one thousand dollars ($1,000) or by imprisonment in the county jail for a period not to exceed 180
days or by both such fine and imprisonment. In addition, a violation of subdivision (b) of Section 25990
constitutes unfair competition, as defined in Section
17200 of the Business and Professions Code, and is
punishable as prescribed in Chapter 5 (commencing
with Section 17200) of Part 2 of Division 7 of the
Business and Professions Code.

51a
(c) The provisions of this chapter relating to cruel
confinement of covered animals and sale of products
shall supersede any conflicting regulations, including
conflicting regulations in Chapter 6 (commencing
with Section 40601) of Subdivision 6 of Division 2 of
Title 22 of the California Code of Regulations.
SEC. 7. Section 25993.1 is added to the Health
and Safety Code, to read:
25993.1. It shall be a defense to any action to enforce subdivision (b) of Section 25990 that a business
owner or operator relied in good faith upon a written
certification by the supplier that the whole veal meat,
whole pork meat, shell egg, or liquid eggs at issue
was not derived from a covered animal who was confined in a cruel manner, or from the immediate offspring of a breeding pig who was confined in a cruel
manner.
SEC. 8. This act shall be amended only by a statute approved by a vote of four-fifths of the members
of both houses of the Legislature. Any amendment of
this act shall be consistent with and further the purposes of this act.
SEC. 9. If any provision of this act, or the application thereof to any person or circumstances, is held
invalid or unconstitutional, that invalidity or unconstitutionality shall not affect other provisions or applications of this act that can be given effect without
the invalid or unconstitutional provision or application, and to this end the provisions of this act are
severable.

